                                                    OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM




         National Science Foundation, OIG opened this investigation based on allegations that a Division
         Director' acted improperly by continuing to fund an institution2for one year after the NSF
         Program Officer recommended that a current multi-year renewal funding request be declined. It
         was also alleged that the Division Director approved the actions of two past Program Officers
         who had conflicts with the institution.

         We reviewed the declined proposal3. We also reviewed the current grant4to the institution,
         which contains the 2005 amendment for one year of continued funding. We interviewed several'
         Division officials. We found no evidence that the Division Director acted improperly fdllowing
         the declination of the proposal, including the action he took to ensure consideration of "
         supplemental funding to the institution under the current grant.

         The complainant in this case also alleged improper action by the Division Director by sdpporting
         improper action of past Program Officers. This office previously reviewed part of this allegatioi
         and the matter was closed after initial review. We found no new evidence to reconsider bur
         previous assessment. In this allegation, the complainant claims that NSF management, including,
         the current Division Director, ignored the actions of a Program Officer from the mid 1990s who
         held a position at the institution, while acting as an NSF Program Officer. We found no evidence
         of wrong doing related to this allegation, determining instead that the position at the instiption
         was known and approved by appropriate authorities at NSF and necessary to the proper ,
         performance of the Program Officer's duties.

          Accordingly, this case is closed.




NSF OIG Form 2 (1 1102)                                                                            I

                                                                                                    I
